OIG Investigative Reports Press Release Cleveland, OH., 03/05/2013 - Former Lakeland Student Indicted On Fraud Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
NORTHERN DISTRCIT OF OHIO
NEWS
Former Lakeland Student Indicted On Fraud Charges
FOR IMMEDIATE RELEASE
March 05, 2013
A two-count indictment was filed charging a Cleveland woman with crimes related to the misuse of more than $6,000 in federal financial aid, said Steven M. Dettelbach, United States Attorney for the Northern District of Ohio.
Tanya Oliver, 28, is charged with one count each of mail fraud and student aid fraud.
Oliver enrolled at Lakeland Community College in Kirtland, Ohio. During the 2007-2008 school year, Oliver fraudulently caused more than $6,000 in federal financial aid to be provided to Lakeland for the purposes of funding her education. Those monies were the basis for providing refunds to Oliver in the amount of $5,174.95, according to the indictment.
Oliver obtained the funds for the purpose of using the monies for her own personal use, according to the indictment.
This case is being prosecuted by Assistant U.S. Attorney Christos M. Georgalis following an investigation by the U.S. Department of Education, Office of Inspector General.
If convicted, the defendant's sentence will be determined by the court after review of factors unique to this case, including the defendant's prior criminal record, if any, the defendant's role in the offense and the characteristics of the violation.
In all cases the sentence will not exceed the statutory maximum and in most cases it will be less than the maximum.
An indictment is only a charge and is not evidence of guilt. A defendant is entitled to a fair trial in which it will be the government's burden to prove guilt beyond a reasonable doubt.
Top
Printable view
Last Modified: 03/08/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov